               AUDIT OF THE

       OFFICE OF JUSTICE PROGRAMS

         EDWARD BYRNE MEMORIAL

JUSTICE ASSISTANCE GRANT PROGRAM GRANT

             AWARDED TO THE

      CITY OF RIVERSIDE, CALIFORNIA




        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



       Audit Report GR-90-11-001

              January 2011

                      AUDIT OF THE

              OFFICE OF JUSTICE PROGRAMS

                EDWARD BYRNE MEMORIAL

       JUSTICE ASSISTANCE GRANT PROGRAM GRANT

                    AWARDED TO THE

             CITY OF RIVERSIDE, CALIFORNIA


                        EXECUTIVE SUMMARY


      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of a Recovery Act Edward Byrne Memorial
Justice Assistance Grant Program (JAG) grant (2009-SB-B9-0599), awarded
by the Office of Justice Programs (OJP), Bureau of Justice Assistance, to the
City of Riverside, California (Riverside). Riverside used the Recovery Act
JAG grant to purchase 15 police cars, 4 police motorcycles, including
emergency equipment on the aforementioned vehicles, and fund 3 full-time
Riverside Police Department employees for 1 year. The goal of the grant
was to replace aging or damaged vehicles in order to reduce operating and
maintenance costs while providing a highly visible, more reliable police
presence; and to retain full-time positions within the Riverside Police
Department. Riverside was awarded $928,874 under this grant. As of
July 6, 2010, Riverside had expended $821,704 (88 percent) of the grant
award.

       The purpose of the Bureau of Justice Assistance’s Recovery Act JAG
Program is to preserve and create jobs and promote economic recovery; to
assist those most impacted by the recession; to provide investments needed
to increase economic efficiency by spurring technological advances in science
and health; to invest in transportation, environmental protection, or other
infrastructure that will provide long-term economic benefits; and to stabilize
state and local government budgets, in order to minimize and avoid
reductions in essential services and counterproductive state and local tax
increases.

Audit Results

      The purpose of our audit was to determine whether costs claimed were
allowable, reasonable, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant. The objective of our audit
was to review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) program income; (4) grant expenditures;
(5) payroll; (6) accountable property; (7) Financial Status Reports (FSR);
Progress Reports, and Recovery Act Reports; (8) grant requirements; and

                                    - ii ­
(9) program performance and accomplishments. We determined that
budget management and control, indirect costs, matching, and monitoring of
sub-grantees and contractors were not applicable to this grant.

       As a result of our audit, we found that Riverside’s financial
management system provided adequate maintenance of grant-related
activities. For the two grant drawdowns, we found them to be adequately
supported and Riverside was managing the grant receipts in accordance with
federal requirements. The FSRs, Progress Reports, and Recovery Act
Reports that we reviewed were submitted in a timely manner and all
Progress Reports and Recovery Act Reports were accurate. However, we
noted the following exceptions:

     •	 two FSRs were inaccurate; and

     •	 fringe benefit costs were inadequately supported and were
        calculated from a ratio that included unallowable expenditures. As
        result, we questioned $74,904 in fringe benefit expenditures.

      These items are discussed in detail in the Findings and
Recommendations section of the report. Our report contains three
recommendations to OJP. Additionally, we discussed the results of our audit
with Riverside officials and have included their comments in the report, as
applicable. Further, we requested from Riverside and OJP written responses
to our draft report, which we received and are included in Appendices III and
IV, respectively. Our audit objective, scope, and methodology are discussed
in Appendix I.




                                    - iii ­
                                 TABLE OF CONTENTS


INTRODUCTION…………………………………………………………........ 1

Recovery Act............................................................................... 2

Background ................................................................................ 2

OIG Audit Approach ..................................................................... 3

FINDINGS AND RECOMMENDATIONS........................................ 5

Internal Control Environment ........................................................ 5

           Single Audit.................................................................... 5

           Financial Management System.......................................... 6

Drawdowns................................................................................. 6

Program Income.......................................................................... 7

Grant Expenditures ...................................................................... 7

           Payroll ........................................................................... 7

           Accountable Property....................................................... 9

Reports .....................................................................................10

           Financial Status Reports..................................................10

           Annual Progress Reports .................................................11

           Quarterly Recovery Act Reports .......................................11

Compliance with Grant Requirements............................................12

Program Performance and Accomplishments ..................................12

Conclusion .................................................................................13

Recommendations ......................................................................13

APPENDIX I -           OBJECTIVE, SCOPE, AND METHODOLOGY ...... 14

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .. 16

APPENDIX III - GRANTEE RESPONSE...................................... 17

APPENDIX IV - DEPARTMENT OF JUSTICE RESPONSE ............ 20

APPENDIX V -           ANALYSIS AND SUMMARY OF ACTIONS

                       NECESSARY TO CLOSE THE REPORT............... 22

                                   INTRODUCTION

      The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Recovery Act Edward Byrne
Memorial Justice Assistance Grant Program (JAG) grant (2009-SB-B9-0599),
awarded by the Office of Justice Programs (OJP), Bureau of Justice
Assistance (BJA), to the City of Riverside, California (Riverside). Riverside
used the Recovery Act JAG grant to purchase 15 police cars, 4 police
motorcycles, including emergency equipment on the aforementioned
vehicles, and fund 3 Riverside Police Department employees for 1 year. The
goal was to replace aging or damaged vehicles in order to reduce operating
and maintenance costs while providing a highly visible, more reliable police
presence; and to retain full-time positions within the Riverside Police
Department. As shown in the table below, Riverside was awarded $928,874
under this grant. As of July 6, 2010, Riverside had expended $821,704
(88 percent) of the grant award.

                               EXHIBIT 1

                JUSTICE ASSISTANCE GRANT AWARDED TO

                          CITY OF RIVERSIDE

        GRANT AWARD        AWARD          AWARD
                                                  AWARD AMOUNT
          NUMBER         START DATE    END DATE 1
     2009-SB-B9-0599               03/01/09           02/28/13                 $928,874
  Source: OJP

      The purpose of our audit was to determine whether costs claimed were
allowable, reasonable, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant. The objective of our audit
was to review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) program income; (4) grant expenditures;
(5) payroll; (6) accountable property; (7) Financial Status Reports (FSR);
Progress Reports, and Recovery Act Reports; (8) grant requirements; and
(9) program performance and accomplishments. 2 We determined that
budget management and control, indirect costs, matching, and monitoring of
sub-grantees and contractors were not applicable to this grant.




       1
           The Award End Date includes all time extensions that were approved by OJP.
       2
         According to OJP, grantees were required to prepare and submit FSRs through
September 30, 2009. As of October 1, 2009, the requirement changed requiring grantees to
prepare and submit Federal Financial Reports - a new version of financial reporting.
Throughout this report, we refer to either of the reports as FSRs or simply as financial reports.
Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided $787 billion for tax cuts, education, health
care, entitlement programs, contracts, grants, and loans. Recipients of
Recovery Act funds are required to quarterly report to FederalReporting.gov
on how they have spent their Recovery Act funds and the number of jobs
created or saved. The Department of Justice received $4 billion in Recovery
Act funds and made almost $2 billion of that funding available through the
JAG Program.

Background

       The City of Riverside is located in the southern portion of the state of
California, approximately 60 miles east of Los Angeles. With a population of
about 300,000, the city covers approximately 78 square miles. To cover this
territory, the Riverside Police Department has more than 500 police officers.
According to the Riverside Police Department, there were 27,218 instances
of crime committed in 2009, of which approximately 41 percent included
murder, rape, robbery, aggravated assault, burglary, theft, and auto theft.

      OJP’s mission is to increase public safety and improve the fair
administration of justice through innovative leadership and programs.
Specifically, BJA provides leadership and assistance to local criminal justice
programs that improve and reinforce the nation’s criminal justice system.
The BJA’s overall goals are to: (1) reduce and prevent crime, violence, and
drug abuse; and (2) improve the way in which the criminal justice system
functions.

       The purpose of the BJA’s JAG Program, including programs funded by
the Recovery Act, is to enable states, tribes, and local governments to
support a broad range of activities to prevent and control crime based on
their own local needs and conditions. JAG funds can be used for state and
local initiatives, technical assistance, training, personnel, equipment,

                                     -2­
supplies, contractual support, and criminal justice information systems in
any one or more of the following purpose areas:

      •	 Law enforcement programs

      •	 Prosecution and court programs

      •	 Prevention and education programs

      •	 Corrections and community corrections programs

      •	 Drug treatment programs

      •	 Planning, evaluation, and technology improvement programs

      •	 Crime victim and witness programs (other than compensation)

      Based on Riverside’s grant application, Riverside planned to use the
Recovery Act JAG grant to fund 3 positions and to purchase 15 police cars,
4 police motorcycles, and emergency equipment for the police cars. The
State of California had previously funded two of the three positions.
However, when the state’s funding was reduced, the Riverside Police
Department used OJP JAG grant funds to avoid laying-off these employees.
In particular, the Recovery Act JAG grant allowed the Riverside Police
Department to retain a Police Records Specialist and a Police Detective. In
addition, the Recovery Act JAG grant allowed the Riverside Police
Department to continue funding a third position (Evidence Technician) that
had been previously funded by non-Recovery Act JAG awards.

OIG Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the grant award. Unless otherwise stated in our report, the
criteria we audited against are contained in the OJP Financial Guide, award
documents, Code of Federal Regulations, Office of Management and Budget
Circulars, and the Recovery Act. Specifically, we tested:

      •	 Internal control environment – to determine whether the
         internal controls in place for the processing and payment of funds
         were adequate to safeguard grant funds and ensure compliance
         with grant terms and conditions.




                                    -3­
     •	 Grant drawdowns – to determine whether grant drawdowns were
        adequately supported and if Riverside was managing grant receipts
        in accordance with federal requirements.

     •	 Program Income – to determine how it was accounted for in the
        financial management system and whether it was used in
        accordance with the OJP Financial Guide.

     •	 Grant expenditures – to determine whether costs charged to the
        grant were accurate, adequately supported, and allowable.

     •	 Payroll – to determine whether salaries and benefits paid by the
        grant were reasonable.

     •	 Accountable Property – to determine whether property and
        equipment were recorded in inventory records, identified as
        federally funded, and used as intended by the grant.

     •	 Financial Status Reports, Progress Reports, and Recovery
        Act Reports – to determine if the required FSRs, Progress Reports,
        and Recovery Act Reports were submitted on time and accurately
        reflected grant activity.

     •	 Grant requirements – to determine whether Riverside complied
        with grant award guidelines and grant solicitation criteria.

     •	 Program objectives and accomplishments – to determine
        whether Riverside made a reasonable effort to accomplish stated
        objectives.

      The results of our audit are discussed in detail in the Findings and
Recommendations section of the report. Our report contains three
recommendations to OJP. Additionally, we discussed the results of our audit
with Riverside officials and have included their comments in the report, as
applicable. Further, we requested from Riverside and OJP written responses
to our draft report, which we received and are included in Appendices III and
IV, respectively. Our audit objective, scope, and methodology are discussed
in Appendix I.




                                    -4­
               FINDINGS AND RECOMMENDATIONS

            Overall, we found that Riverside adequately
            maintained grant-related financial records and data
            and was properly managing the use of grant funds.
            However, we noted that Riverside applied fringe
            benefit costs to the grant that were inadequately
            supported and were calculated from a ratio that
            included unallowable expenditures. As a result, we
            questioned $74,904 in fringe benefit expenditures.
            Further, although Riverside timely submitted
            quarterly Financial Status Reports, we found two of
            the four reports to be inaccurate when compared to
            Riverside’s accounting records.

Internal Control Environment

      We reviewed Riverside’s policies and procedures, Single Audit Report,
and financial management system to assess the city’s risk of noncompliance
with laws, regulations, guidelines, terms and conditions of the grant. We also
interviewed individuals from Riverside’s grant management, accounting, and
finance staffs regarding internal controls and processes related to payroll,
purchasing, and accounts payable functions. We also observed the financial
management system, as a whole, to further assess risk.

      Our review of any potential internal control issues disclosed in the
Single Audit Report or found in our review of Riverside’s financial
management system are discussed below in the Single Audit and Financial
Management sections, respectively. We also reviewed Riverside’s
administrative manual on grant management and determined that Riverside
has complied with its grant management policies and procedures. In
addition, we reviewed the city’s accounting system and determined that it
adequately tracked grant receipts and expenditures and that all grant-
related activities were separately accounted for in the system. By
interviewing the responsible Riverside officials in charge of the grant, we
obtained an understanding of Riverside’s internal controls and determined
that the internal controls that are in place for the processing and payment of
funds were adequate to safeguard grant funds and ensure compliance with
grant terms and conditions.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a

                                    -5­
year shall have a Single Audit conducted. At the start of our fieldwork, the
most recent single audit available for Riverside was for fiscal year
(FY) 2009. 3 We reviewed Riverside’s FY 2009 Single Audit Report and found
that the independent auditors had issued an unqualified opinion and had no
findings.

Financial Management System

      The OJP Financial Guide requires that all grant fund recipients
“establish and maintain adequate accounting systems and financial records
to accurately account for funds awarded to them.” The guide additionally
requires that the accounting system provide adequate maintenance of
financial data to enable planning, control, and measurement. The guide also
requires that grantees separately account for each award and not commingle
grant funds.

      We found that Riverside adequately maintained grant-related financial
records and data. Also, Riverside utilized an accounting system entitled
Integrated Financial and Administrative Solution (IFAS). Based on our
overall review of grant-related transactions that were recorded in IFAS, we
found that the system accurately accounted for grant-related receipts and
expenditures. Further, we found grant-related transactions (i.e., receipts
and expenditures) were separately tracked from all other funding.

Drawdowns

       Before the initial drawdown of grant funds, Riverside was required to
notify OJP that it has met the local governing body review and community
notification requirements. On April 21, 2009, Riverside met its local
governing body review and public notification requirements when its City
Council convened a meeting. On August 21, 2009, Riverside made its initial
drawdown of grant funds in the amount of $300,000 and on August 25,
2009, Riverside made a second and final drawdown in the amount of
$628,874. Both drawdowns were made on an advance basis. We found that
$107,170 of grant funds remained unexpended as of July 6, 2010.
According to the grant solicitation, Riverside was allowed to draw down the
entire grant award amount, as long as it established a trust fund that
separately accounted for grant funds from other sources of funding.
We found that Riverside segregated grant funds within its official accounting
system in accordance with OJP’s requirements.




     3
         Riverside’s fiscal year is from May 31 through June 1.

                                            -6­
Program Income

     According to the OJP Financial Guide, "interest earned on JAG and
Juvenile Accountability Block Grants funds are considered program income
and should be expended only on allowable purpose areas under these
programs. Recipients are required to use all funds within the fixed
expenditures period."

      As of July 6, 2010, we determined that the grantee had earned grant-
related interest income totaling $14,939. Riverside’s Grant Manager
explained that the funds earned from drawdowns were retained in the city’s
interest-bearing bank account. The bank account includes not only funds
from grant drawdowns but also from other sources unrelated to the grant.
The city allocated interest income to the grant using a pro-rata basis. We
reviewed supporting documentation that showed how Riverside allocated the
earned interest to the grant and we found that the methodology appeared
reasonable and the calculation was accurate. Therefore, we determined that
program income was being allocated to the grant and it was being used in
accordance with the OJP Financial Guide.

Grant Expenditures

       We reviewed Riverside’s grant-related general ledger and noted that
as of July 6, 2010, Riverside had $821,704 of grant-related expenditures.
The expenditures comprised of payments made to vendors for the purchase
of police cars, police motorcycles, emergency equipment, and compensation
to employees. From a universe of 177 transactions totaling $821,704, we
selected and tested a sample of 25 transactions totaling $544,736
(66 percent). Thirteen of the sample transactions were selected from the
highest dollar transactions in the universe and the remaining sample
transactions were judgmentally selected. We reviewed supporting
documentation (purchase requisitions, purchase orders, receiving reports,
invoices, and photocopies of checks) for each of the sampled transactions.
We found that all of the sample expenditures tested were accurate,
adequately supported, and allowable.

Payroll

       According to Riverside’s grant application, Riverside intended to pay
1 year’s salary and fringe benefits for three full-time employees consisting of
a Police Detective, Police Records Specialist, and an Evidence Technician.
We noted that a Police Detective’s salary was charged to the grant for 1 year
from June 25, 2009, to June 24, 2010, and a Police Records Specialist’s
salary was charged to the grant from August 6, 2009, through

                                     -7­
July 22 , 2010.4 Additionally, as of July 22, 2010, we found that no salary or
fringe benefits had been charged to the grant for the Evidence Technician.
According to Riverside’s Grant Manager, the Evidence Technician’s salary
and fringe benefits will be charged to the grant when funds from another
grant (a 2008 JAG grant) are depleted.

      To verify whether the payroll expenses (salaries and fringe benefits)
paid to the Police Detective and Police Records Specialist were accurately
recorded, properly supported, and appropriately charged to the grant, we
selected two nonconsecutive pay periods and traced the hours worked to
employee timesheets. In addition, we reviewed the signed Memorandum of
Understanding between Riverside and the Riverside Police Officer’s
Association, the signed Memorandum of Understanding between Riverside
and Service Employees International Union, Riverside’s most recent Salary
Schedule, and Riverside’s Fringe Benefits and Salary Resolution to determine
the validity of the salary amounts. Based on our review of these documents,
we found that the salaries we tested were properly supported and
reasonable. However, we found that Riverside did not accurately record
fringe benefit transactions in its grant-specific general ledger nor were fringe
benefit expenditures adequately supported.

      Specifically, Riverside recorded fringe benefits as “labor overhead,”
which implies that the fringe benefit charges were indirect costs. Further,
Riverside’s underlying support for its estimated fringe benefit rate
formulation referred to fringe benefits as indirect costs. According to 2 CFR
Part 225, Cost Principles for State, Local, and Indian Tribal Governments
(formerly known as OMB Circular A-87), salary and fringe benefits paid to
employees are considered direct costs, not indirect costs. The OJP-approved
grant budget did not include any indirect costs nor was any indirect cost
reported on Riverside’s FSRs. We recommend that Riverside correct how it
records fringe benefit charges in its general ledger to ensure that the
charges are not referred to as indirect costs.

      Furthermore, when we tested fringe benefit transactions, we found
that Riverside did not charge the grant for the actual fringe benefit costs
associated with the grant-funded positions. Instead, Riverside applied an
estimated fringe benefit rate that was calculated based on the fringe benefits
paid to all employees of Riverside in the previous fiscal year (FY 2009). 5
Included in this calculation were fringe benefit costs entitled

       4
           We began our audit’s fieldwork on August 3, 2010.
       5
         Riverside’s estimated fringe benefit rate was based on fringe benefits paid to all
Riverside employees except for those working in its Department of Housing and Urban
Development.

                                             -8­
“Automobile/Expense Allowance,” which is an unallowable fringe benefit
category for this grant. In total, Riverside recorded $74,904 in fringe
benefits in its official accounting records for the two grant-funded positions.

      According to 2 CFR Part 225, payroll costs, including fringe benefits,
are defined as “. . . remuneration, paid currently or accrued, for services
rendered during the period of performance under Federal awards. . . .” We
understand this to mean that the fringe benefit costs that are charged to a
grant are actual costs, not estimated amounts.

      When we inquired of Riverside concerning the estimated fringe benefit
charges, Riverside officials provided to us manually prepared spreadsheets
that showed the actual fringe benefits for the two employees, who were paid
with grant funds. Riverside’s Controller stated that the fringe benefit data
provided was derived from the city’s accounting system. In addition, the
Controller provided a summary that he created to present a comparison
between the actual fringe benefits incurred by the two employees and the
estimated fringe benefits that were charged to the grant during FYs 2009
and 2010. Since the fringe benefits charged to the grant were less than the
actual fringe benefits incurred by the two employees, Riverside’s Controller
believed that Riverside treated the fringe benefits costs in a conservative
manner. As we understand that fringe benefit costs should be actual, and
not estimated, costs, we asked the Controller why Riverside did not record
the actual fringe benefit amounts for the two grant-funded positions, but
rather estimated amounts. The Controller stated that it would be too time
consuming to record the actual fringe benefit amounts and it would be much
easier to instead record an estimated amount.

      We did not audit the figures included in the manually created
spreadsheet because those amounts were not the source of the transactions
recorded in Riverside’s grant general ledger. Rather, we tested the support
for the transactions as recorded in Riverside’s official accounting system and
we found those transactions to be inadequately supported. Given that the
amounts recorded on Riverside’s grant general ledger were not actual fringe
benefits but rather a different amount that was inadequately supported, we
question the $74,904 in fringe benefits that was recorded in its grant-related
accounting records.

Accountable Property

      According to the OJP Financial Guide, property acquired with grant
funds should be used for the purposes stated in the grant application.
Further, grant recipients must maintain records on the source of property
items that were acquired using grant funds. We judgmentally selected from

                                     -9­
Riverside’s expenditure records a sample of 10 accountable property items
that included police cars, motorcycles, and emergency equipment. We found
that all sampled accountable property items were properly recorded and
identified as federally funded. In addition, we physically verified all sample
property items and determined that the items were being utilized for grant-
related purposes.

Reports

      According to the OJP Financial Guide, award recipients are required to
submit both quarterly FSRs and annual Progress Reports. These reports
describe the status of the funds, compare actual accomplishments to the
objectives of the grant, and report other pertinent information. Moreover,
since this is a Recovery Act grant, Riverside was required to submit quarterly
Recovery Act reports. We reviewed the FSRs, Progress Reports, and
quarterly Recovery Act Reports submitted by Riverside to determine whether
each report was timely and accurately submitted to OJP.

Financial Status Reports

       According to the OJP Financial Guide, the quarterly FSRs are due no
later than 45 days after the end of the quarter, with the final FSR due within
90 days after the end date of the award. We reviewed the timeliness of the
last four FSRs submitted during the award period for the grant and based on
our review we found that Riverside submitted each report in a timely manner.

                                 EXHIBIT 2

                FINANCIAL STATUS REPORT HISTORY FOR

                          GRANT 2009-SB-B9-0599

   Report          Reporting          Report       Date             Days
    No.              Period          Due Date    Submitted          Late
     1         04/01/09 - 06/30/09    08/14/09    08/03/09           0
     2         07/01/09 - 09/30/09    11/14/09    10/07/09           0
     3         09/30/09 - 12/31/09    02/14/10    01/17/10           0
     4         01/01/10 - 03/31/10    05/15/10    04/12/10           0
Source: Riverside and OJP

      We also reviewed each FSR to determine whether the report contained
accurate information related to actual expenditures, un-liquidated obligations
incurred during the reporting period, and program income for the award.
Based on our review, we found that two of the four most recent FSRs were
accurate, and the remaining two FSRs were inaccurate. For the inaccurate
FSRs, Riverside failed to include $12,672 in cumulative program income on
the FSR for the period ending December 31, 2009, and it inaccurately

                                    - 10 ­
reported program income and expenditures on the second report causing
total expenditures to be understated by $13,067 and income to be
overstated by $12,259 when compared to Riverside’s accounting system.
Therefore, we recommend that OJP ensure that Riverside submits FSRs that
accurately includes all grant-related program income and expenditures.

Annual Progress Reports

      The OJP Financial Guide requires grantees to submit Progress Reports
semiannually for discretionary awards and annually for block or formula
awards. Since this grant is a formula grant award, it is subject to the annual
requirement. Riverside was required to submit one Progress Report during
the award period for this grant and we found that it was submitted to OJP in
a timely manner.

                                 EXHIBIT 3

                     PROGRESS REPORT HISTORY FOR

                          GRANT 2009-SB-B9-0599

   Report          Reporting          Report        Date              Days
    No.              Period          Due Date    Submitted            Late
     1         03/01/09 - 09/30/09   11/29/09     10/23/09             0
Source: Riverside and OJP

      The OJP Financial Guide states that:

            . . . the funding recipient agrees to collect data appropriate
            for facilitating reporting requirements established by Public
            Law 103-62 for the Government Performance and Results
            Act. The funding recipient will ensure that valid and
            auditable source documentation is available to support all
            data collected for each performance measure specified in
            the program solicitation.

     We found that Riverside’s Progress Report for the period ending
September 30, 2009, accurately reflected grant accomplishments.

Quarterly Recovery Act Reports

      Section 1512 of the Recovery Act requires recipients of Recovery Act
funds to report their Recovery Act related expenditures and jobs created or
saved to FederalReporting.gov. Riverside’s initial report was due
October 10, 2009, with quarterly reports due 10 days after the close of each
quarter thereafter.



                                     - 11 ­
     We reviewed Riverside’s Recovery Act reports for the quarters ended
September 30, 2009, December 31, 2009, March 31, 2010, and June 30,
2010, and found that all of the reports were timely submitted.

                                 EXHIBIT 4

                   RECOVERY ACT REPORT HISTORY FOR

                          GRANT 2009-SB-B9-0599

   Report          Reporting          Report       Date               Days
    No.              Period          Due Date    Submitted            Late
     1         07/01/09 - 09/30/09    10/10/09    10/05/10             0
     2         10/01/09 - 12/31/09    01/10/10    01/07/10             0
     3         01/01/10 - 03/31/10    04/10/10    04/06/10             0
     4         04/01/10 - 06/30/10    07/10/10    07/06/10             0
Source: Riverside and OJP

      We also confirmed that Riverside’s Recovery Act reports accurately
reported expenditures and the number of jobs retained.

Compliance with Grant Requirements

       We reviewed Riverside’s compliance with specific program
requirements in the grant solicitation as well as special conditions included in
its grant award. We determined that Riverside complied or was complying
with all grant requirements.

Program Performance and Accomplishments

       According to Riverside’s grant application, Riverside planned to use the
grant award to purchase 15 police cars, 4 police motorcycles, and emergency
equipment, as well as retain 3 full-time employees, including a Police
Detective, Police Records Specialist, and an Evidence Technician. Based on
discussions with Riverside’s Grant Manager, our review of accounting records,
and physical verification of sampled vehicles, motorcycles, and equipment, we
determined that Riverside purchased all of the aforementioned property items.
In addition, we determined that Riverside paid 1 year's salary for a Police
Detective. At the time of our fieldwork, Riverside was in the process of paying
1 year's salary for its Police Records Specialist. Riverside plans to use grant
funds to pay for the salary and fringe benefits of its Evidence Technician once
it has depleted other grant funds.

      In the Payroll section of this report, we describe our finding related to
inadequately supported fringe benefit expenditures associated with the Police
Detective and Police Records Specialist. As a result of our finding, we
questioned the amount of fringe benefits that were charged to the grant.

                                     - 12 ­
Riverside’s failure to record actual fringe benefit expenditures did not, however,
cause us to conclude that Riverside did not retain the individuals that were
described in its grant application. Therefore, based on our testing, we found no
exception to Riverside’s efforts to accomplish its grant goals and objective.

Conclusion

      Overall, we found that Riverside adequately maintained grant-related
financial records and data and was properly managing the use of grant
funds. We found that all of the sample expenditures we tested were
accurate, adequately supported, and allowable, except for fringe benefits
paid to employees that were funded by the grant. Specifically, Riverside
applied fringe benefit costs to the grant that were inadequately supported
and were based on an estimated ratio that included unallowable
expenditures. As a result, we questioned $74,904 in fringe benefit costs
charged to the grant.

      We found that all sampled accountable property items were properly
recorded in Riverside’s property records and identified as federally funded.
In addition, we physically verified all sample property items and determined
that the items were being utilized for grant related purposes.

     Riverside timely and accurately submitted its Progress Reports to OJP
and Recovery Act reports to FederalReporting.gov. Although Riverside
submitted to OJP its FSRs in a timely fashion, we found that the FSRs
submitted were not accurate as it pertained to program income and
expenditures.

Recommendations

      We recommend that OJP:

      1. Remedy the $74,904 in questioned costs relating to Riverside’s
         inadequately supported fringe benefits.

      2. Ensure that Riverside establishes procedures to properly record
         actual fringe benefits in its grant accounting records.

      3. Ensure that Riverside submits accurate Financial Status Reports
         that include all grant-related program income and expenditures.




                                    - 13 ­
                                                                 APPENDIX I

                OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether costs claimed
under Grant 2009-SB-B9-0599 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) grant expenditures; (5) payroll;
(6) accountable property; (7) Financial Status Reports (FSR); Progress
Reports, and Recovery Act Reports; (8) grant requirements; and
(9) program performance and accomplishments. We determined that
budget management and control, matching, and monitoring of sub-grantees
and contractors were not applicable to this grant.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit’s objective.

       Unless otherwise specified, our audit covered, but was not limited to,
activities that occurred between the start of Grant 2009-SB-B9-0599 in
March 2009 through the start of our audit fieldwork on August 3, 2010.
Further, the criteria we audited against are contained in the OJP Financial
Guide, Code of Federal Regulations, Office of Management and Budget
Circulars, the 2009 American Reinvestment and Recovery Act, and specific
program guidance, such as award documents and the grant solicitation.

      We did not test internal controls for Riverside taken as a whole or
specifically for the grant program administered by the Riverside Police
Department. An independent Certified Public Accountant conducted an audit
of Riverside's financial statements. The results of this audit were reported in
the Single Audit Report that accompanied the Independent Auditors’ Report
for the year ending June 30, 2009. The Single Audit Report was prepared
under the provisions of Office of Management and Budget Circular A-133.
We reviewed the independent auditor’s assessment to identify control
weaknesses and significant noncompliance issues related to Riverside or the
federal programs it was administering, and assessed the risks of those
findings on our audit.




                                    - 14 ­
      In addition, we performed limited testing of source documents to
assess the accuracy of reimbursement requests and FSRs. However, we did
not test the reliability of the financial management system as a whole, nor
did we place reliance on computerized data or systems in determining
whether the transactions we tested were allowable, supported, and in
accordance with applicable laws, regulations, and guidelines. We also
performed limited testing of information obtained from OJP’s Grants
Management System (GMS) and found no discrepancies. We thus have
reasonable confidence in the GMS data for the purposes of our audit.
However, the OIG has not performed tests of the GMS system specifically,
and we therefore cannot definitively attest to the reliability of GMS data.




                                   - 15 ­
                                                                 APPENDIX II

               SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                         AMOUNT ($) PAGE

   Unsupported Costs
     Inadequately Supported Fringe Benefits                   $ 74,904       9

TOTAL QUESTIONED COSTS                                         $74,904

TOTAL DOLLAR RELATED FINDINGS                                  $74,904




Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the
time of the audit, or are unnecessary or unreasonable. Questioned costs may be
remedied by offset, waiver, recovery of funds, or the provision of supporting
documentation.



                                     - 16 ­
                                                                                                               APPENDIX III


                                          GRANTEE RESPONSE




            Office of the
            City Manager
            Fjnooce




Delember 14, 2010

Oa vid J. G.aschke
Region~1 Audit Man~8e r
U.S. Oep;lrtment of Justice
Office of the Inspector General
120) lIayhili Drive, Suite 201
Sa n IIruno, Ca lifornia 94066

               RESPONSE TO DRAFT AUDIT REPORT ON THE OFfIC£Of JUSTICE PROGRAMS
                 EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE GRANT PROGRAM­
                        GRANT AWARDED TO CITY OF RIVERSIDE, CAUFORNIA

Dear Mr. GalChke:

Thank you !of the opportunity to submit this letter in response to the findings ooted in the d r~ft ~lICIil
repon provided by your office. The City of Riverside hils completed its review of the draft audit report
covering the above-referenced grant and has the following respon!.!!s to each of the find ings co nta ined
therein:

Findi!!!! No. t - Questioned Costs I!elalln&to In~dequa!eIy Supported FrlnKe Benefits

The City does not concu r with thiS find ing.

It is the Citfs belief that it did charge actual fringe beoe'~s to the grant. The process by which this
occured is an estimation technique that looks at the prior year's actual fringe be nefit experience to
develop the allocation percentage, as described in the audit report. However, this technique used to
apply the charges does oot change the character of the expenses paid on behalf of each employee. The
(ity manages thousands of projeas e'lery year. This practice is conSistent with industry standards. local
government 3W)unting systems typically do not split each individual disbursement of employee
benefits to all of the applicable cost centers at the time of payment. Again, the character of a cost is not
changed §imply by adding the intermediate step of al locating that cost for the sake ofefficiency.

A reference is made in the draft audit letter that the allocation process used by the (ity included
"vehicular maintenance" com (which wou ld NOT be a fringe benefit cost). Th is wa! only mentioned to
(ity staff at the exit conferer.ce and a supportin, documentation wa! oot avai lable to demon!trate the




                                                            - 17 ­
City Response to DraltAudit Report
Page 2 of 3


issue at that time. Therefore, I am unable to spe<ifically speak to what they found but the City has
relooked at the calculation used to develop the allocation methodology for the fringe benefits and
vehicle costs itre NOT included.

Lastly, in regard to this first finding. at the pre-exit meeting held at the Police Department before the
auditors Itlt the field, they advised staff 01 this issue. At that time, staff made the me as documented
above and ind icated tllat since the allocation methodology was being challenged, we could for the two
grant-related employees actually pull the actual Mdirectly paid fringe benefit" charges to support our
premise that the allocation methodology is a reasonable technique for charging fringe benefit costs.
That exercise was done and provided to the auditors in a timely manner after the meeting (following
week). That exercise demonstrated that the s[le(ific iictual ·direct fringe benefits' associated with
these two employees were slightly more than the $74,904 that had been applied via the allocation
methodology.

Our hope would be that even if the DOJ ultimately found that the technique for applying direct fringe
benefits is inadequate, because an amount less than the total has been charged to the grant, the costs
would NOT be determined unallowable. The draft audit letter indicates that they have not audited this
"manual schedule" but that is because the issue was not raised until the pre-exit meeting and not in the
course of performing the f~dwort wtlen time would have allowed for "alternative" procedures that
would have shown the amount to be reasonable.



Findin. No. 2- Procedures to Properly Resonl Actujll FrinKe BeneflU in G@ntRecords

The City does not concur with this finding.

Based on the comments aboye to Finding No.1, the City believes its current process to apply actual
fringe benefits to its thousands of grants/projeds each YNr is a reasonab~ procedure. However, if the
review process by the DOJ determines this not to be the case for their purposes, the City will develop an
alternative to handle the specific grants having thjs requirement.

The process for applying Iringe benefits to grants/projects has been used by the City for many, many
years and been evaluated by independent financial. state and federal auditors many times. This is the
first time the process has been questioned, and thus we believe it serves as a reasonable methodology
and before we "reinvent the wheel: want to allow the process to work itselfto a conclusion by the DOl.




                                                        - 18 ­
City Response to Drift Audit Report 

Page30f3 




Flndl!\l No. 3 - Inlccurades Found on Financial Status ReportS


The Qty concurs with this nnding.


We agref! differences existed between what was reported on the financial statul reports and what was
recorded in the general ledger for the two identified quarters. We simply want to be on record that the
difference noted WiS a timing difference between two ~uential financial status reports. The first
report was prepared «too early" before all re~enue was posted for the period. Tiley were then picked
up in the subsequent report. and reported In the were prepared ind when the general Ie<lger was
closed for that particular reporting period. Enhanced procedures have been implemented to ensure
proper reporting in the future .



Not spet;ifically related to a finding. the draft audit letter has an inconsistency on page 9 In which the
fi rst full paragraph states that the Controller indicates the estimated fringe benefits charged to the grant
are less than the actual fringe benefits, and thus a conservative allocation of Iringe benefits is made to
the grant. Then the next paragraph seeks to make a point about this, but switches "actual" and
"estimated." The Controller's continued position is that the fringe benefits charged to the grant through
the allotation methodology are l ESS than the amount he determined as "actual" when he went back
and pulled those costs out of the ledger subsequent to the pre-exit inteMew. The summary comment
made by the auditor concludes that an inaccurate amount of fringe benefits was charged because the
"actual fringe benefits were less than the estimated fringe benefits: This is an Incorrett statem ent.



If \IOu have any questions or require addition al information, please tontactJaron AI-Imam, Controller at
951-826-5466.


Sincerely,


rr,r0· N{~
Brent A. Maron
Finance Director


cc:     Office of Justice Programs !copy provided ~ia facsimile)
        U.S. Department of Justice


        John L PfOvan !c;opy provided electronically) 

        Assistant Regional Audit Manager 

        OffiCI! ofthl! Inspector General 

        U.S. Department of Justice




                                                           - 19 ­
                                                                                                    APPENDIX IV


                  DEPARTMENT OF JUSTICE RESPONSE



                                                  us. Department of Justice

                                                  Office of Justice Programs

                                                  Office of Audit. Asse$.!ment. and Mllnagetmnt




 DEC 202Qm\

MEMORANDUM TO:               David 1. Gaschke
                             Regional Audit Manager
                             Office of the Inspector General
                             SaJl Francisco Regional Audit Office

FROM:                        M.aureen A>-l:!enne~....... l III I.
                             Director    yv...::>i~J"-

SUBJECT:                     Response to the Draft Audit Report, Office ofJustice Programs.
                             Edward Byrne MfTIIQri1l1Justict Assistance Granl Program Granl
                             A...·orded 10 the City ofRiwrside, California

This memorandum is in response to your correspondence, dated November 23, 2010, transmining
the subj~ draft audit report forthe City of Riverside, California (Riverside). We consider the
subject report resolved and request wri tten acceptance of this action from YOUt office.

The report contains th ree recommendations and 574,904 in questioned costs. The following is the
Office of Justice Programs' analysis of the draft audit rCJXlrt recommendations. For ease of
review, the m:ommendations arc I'l:stated in bold and are followed by our response.

I.      We recommend that OJr n:medy the $74,904 in questioned «lsI! relating to
        Riverside', inadtquatdy supported fringe btnefit$.

       We agree with the recommendation. We will coordinate with Rivenide to obtain
       documentation regarding the questioned expenditures, and will request a final
       dctenninalion from the Office of the Chief Financial Officer (OCFO) regarding the
       allowability of the method in which Riverside applied fringe benefit costs to grant number
       2009-SB-B9-<l599. If the questioned costs are detennined to be unaIlO\\'a.ble, Riverside
       will be required to adjust the next Federal Financial Report (FFR) for the granl to remove
       the costs, and return the funds to the U.S. Department of Justice (OOJ), as necessary.




                                                     - 20 ­
2.     We Tffommend that OJP ensure that Rivenide establishes pl'lKedures 10 properly
       Tfford actual friDge benefits in its grant aCC1IuDting rCC1Irds.

       We agree with the recommendation. We will coordinate with Riverside to obtain a copy
       of implemented procedures to ensure that actual fringe benefits are properly recorded in
       its grant aCC()unting records.

3.     We recommend Ihat OJP cnsurt that Riverside submit! accurate hderal Financial
       RCJWrb that include all grant-related program income Ind flpenditures.

       We agree with the recommendation. We \'rill coordinate with Riverside to obtain a
       copy of implemented procedures to ensure that future FFRs are accurate and complete,
       and include all grant.related program income and expenditures.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616·2936.

cc:    Jeffery A. Haley
       \)cputy Director, Audit and Review Dil'ision
       Office of Audit. Assessment, and Management

       lames H. Bureh, II
       Acting Director
       Bureau of Justice Assistance

       Amanda LoCicero
       Audit Liaison
       Bureau of Justice Assistance

       Dean Iwasaki
       Program Manager
       Bureau of Justiee Assistance

       Richard Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OlP Executive Secretariat
       Control Number 20 102186




                                                        - 21 ­
                                                                  APPENDIX V

               OFFICE OF THE INSPECTOR GENERAL
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to Riverside and OJP.
 Riverside’s and OJP’s responses are incorporated in Appendices III and IV,
 respectively, of this final report. The following provides the OIG analysis of
 the responses and summary of actions necessary to close the report.

 Recommendation Number:

       1. Resolved.	 OJP concurred with our recommendation to remedy the
          $74,904 in questioned costs relating to Riverside’s inadequately
          supported fringe benefits. However, Riverside disagreed with this
          finding and related recommendation.

          Specifically, in its response, Riverside stated that it believes it
          properly charged fringe benefit costs to the grant, despite the fact
          that it used estimated amounts. Riverside stated that the
          estimated fringe benefit costs charged to the grant were less than
          the actual fringe benefit costs. Therefore, this meant that Riverside
          was conservative in charging the grant for fringe benefits. Further,
          Riverside stated in its response to our draft report that it had been
          consistently using this methodology of allocating fringe benefits on
          other federal grant programs and it has not been questioned
          before.

          However, 2 CFR Part 225 defines payroll costs, including fringe
          benefits, as “. . . remuneration, paid currently or accrued, for
          services rendered during the period of performance under Federal
          awards. . . .” We understand this to mean that the fringe benefit
          costs that should be charged to the grant are actual fringe benefits
          that have been paid or incurred. As we state in this report,
          Riverside did not charge actual fringe benefits or even accrued
          fringe benefits to the grant, but rather, it charged estimated fringe
          benefit costs that do not meet the definition of 2 CFR Part 225. In
          order to clarify the requirements of 2 CFR Part 225 as it relates to
          fringe benefits, we added language to the Grants Expenditure
          section that was not originally included in our draft report.

          Although Riverside’s calculations resulted in its estimated fringe
          benefit charges being lower than the actual fringe benefit amounts,
          this doesn’t mean that this will remain the case every year that
          Riverside estimates its grant-related fringe benefit costs. There


                                     - 22 ­
may be periods where the estimated fringe benefit amounts are
higher than the actual fringe benefit amounts. Therefore, we do
not see this particular aspect of Riverside’s argument to be a
sufficient justification for using its estimated method of determining
fringe benefits costs that should be charged to the grant.

In addition, as stated in the report, Riverside based its estimated
fringe benefit calculation on the total fringe benefit cost for the
entire city from a previous fiscal year. This calculation included
benefits entitled “Automobile/Expense Allowance,” which was an
unallowable fringe benefit for the grant we audited. Riverside, in its
response to our report, denied that such cost categories were
included in its estimated fringe benefit cost calculations. However,
Riverside provided us with a spreadsheet of source expenditures,
including expenditures entitled “Automobile/Expense Allowance,”
that were included in its estimated fringe benefits calculation for
this grant. Overall, Riverside’s method of charging estimated fringe
benefits to the grant did not result in this cost category being
adequately supported.

OJP stated in its response to our draft report that it plans to
coordinate with Riverside to obtain documentation regarding the
questioned expenditures and request a final determination from the
OJP Office of the Chief Financial Officer regarding the allowability of
Riverside’s fringe benefit costs that were charged to the grant. If
OJP’s Office of the Chief Financial Officer finds that Riverside’s
fringe benefit costs are unallowable, it will require Riverside to
adjust the next Federal Financial Report by removing the fringe
benefit costs and return the funds to the U.S. Department of
Justice.

This recommendation can be closed when we obtain documentation
from OJP regarding the allowability of the method in which
Riverside applied fringe benefit costs to the grant we audited. If
OJP accepts Riverside’s method of charging estimated fringe benefit
costs to the grant, then we request written justification for OJP’s
decision and the supporting criteria for that decision. If OJP
determines that the questioned fringe benefit costs are unallowable,
we request that OJP provide us with a copy of Riverside’s updated
Federal Financial Report showing the removal of the questioned
fringe benefit costs as well as confirmation that Riverside returned
funds to the U.S. Department of Justice.



                            - 23 ­
2. Resolved.	 OJP concurred with our recommendation to ensure that
   Riverside establishes procedures to properly record actual fringe
   benefits in its grant accounting records. OJP plans to coordinate
   with Riverside to obtain a copy of implemented procedures to
   ensure that actual fringe benefits are properly recorded in its grant
   accounting records. Riverside disagreed with this recommendation
   and it referred to its argument related to Recommendation 1 as the
   basis for its disagreement. We likewise refer to the our analysis
   related to Recommendation 1 in which we reiterated our reasoning
   for questioning the fringe benefit costs that Riverside charged to
   the grant.

   This recommendation can be closed when we obtain a copy of
   Riverside’s new procedures for properly recording actual fringe
   benefits in its grant accounting records.

3. Resolved.	 Both OJP and Riverside concurred with our
   recommendation to ensure that Riverside submits accurate
   Financial Status Reports that include all grant-related program
   income and expenditures. OJP plans to coordinate with Riverside to
   obtain a copy of implemented procedures to ensure that future
   Federal Financial Reports are accurate, complete, and include all
   grant-related program income and expenditures.

   This recommendation can be closed when we obtain a copy of
   Riverside’s new procedures related to filing accurate and complete
   (including all grant-related program income and expenditures)
   Federal Financial Reports in the future.




                              - 24 ­
